U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

December 15, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Mikel Clotaire v. United States, No. 20-5908
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on September 29,
2020. The government’s response is now due, after one extension, on December 23, 2020. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including January 22, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-5908
CLOTAIRE, MIKEL
USA

PETER T. PATANZO
BENJAMIN, AARONSON, EDINGER &
PATANZO, PA
1700 EAST LOS OLAS BOULEVARD
SUITE 202
FORT LAUDERDALE, FL 33301
954-779-1700
PPATANZO@BELLSOUTH.NET
954-779-1771(Fax)

